A1
APPENDIX A
310 Ga. 453
FINAL COPY
S20A1309. HUGHES v. THE STATE.
Melton, Chief Justice.
Following a jury trial, Lawrence B. Hughes ap­
peals his convictions for the felony murder of Jamon
Epps and related offenses, contending that the evi­
dence was insufficient, that the trial court made cer­
tain evidentiary and charging errors, and that trial
counsel was constitutionally ineffective.1 For the rea­
sons set forth below, we affirm.
1 On April 20, 2016, Hughes was indicted for felony murder
predicated on aggravated assault (Count 1), felony murder predi­
cated on possession of a firearm by a convicted felon (Count 2),
possession of a firearm during the commission of a felony (Counts
3, 5, 7, 9), aggravated assault (Count 4), hijacking a motor vehicle
(Count 6), armed robbery (Count 8), and possession of a firearm
by a convicted felon (Count 10), in connection with the shooting
death of Epps and the theft of Janie Geiger’s automobile. At a jury
trial on September 4 to 7, 2018, Hughes was acquitted of the
Count 1 felony murder charge and its predicate felony, aggra­
vated assault, but he was found guilty of the remaining counts.
Thereafter, the trial court sentenced Hughes to consecutive sen­
tences of life in prison without parole for felony murder and
armed robbery; twenty years consecutive for hijacking a motor ve­
hicle; and five years consecutive for each of the unlawful firearm
possessions in Counts 3, 7, and 10. The trial court merged the
remaining firearm possession counts (Counts 5 and 9). On Sep­
tember 20, 2018, Hughes filed a motion for new trial, which he
later amended through new counsel. The trial court denied the
motion for new trial as amended on April 9, 2020. Hughes filed a
timely notice of appeal, and his case, submitted on the briefs, was
docketed to the August 2020 term of this Court.

A2
1. Viewed in the light most favorable to the ver­
dicts, the evidence admitted at trial showed that, on
June 25, 2015, Epps drove Hughes and others in a
black SUV to the parking area outside a Chinese res­
taurant in Chatham County. Hughes, a convicted felon,
was sitting behind Epps, and Hughes had a firearm
in his possession. Outside the restaurant, Hughes’s
group, while still inside the SUV, exchanged gunfire
with unknown individuals. During the gunfire, Epps
was shot through the back of his neck and killed. After
realizing Epps had been shot, Hughes exited the SUV
and approached Janie Geiger, who was sitting in her
car across the street. Hughes ordered Geiger to give
him her vehicle while pointing what Geiger described
as a “shotgun or rifle” at her. Geiger evacuated her ve­
hicle, and Hughes drove it away from the scene.
Later, outside the Chinese restaurant, police
found numerous pieces of dark tinted glass, eighteen
shell casings, and leaked gasoline. Geiger’s vehicle was
later recovered on a nearby street, and Hughes’s blood
was found on the steering wheel and driver’s door. In
addition, on the day after the shooting, law enforce­
ment found the black SUV that had been driven by
Epps at The Ponderosa Apartments, approximately
half a mile from the restaurant. Epps’s dead body was
in the driver’s seat. The SUV was riddled with bullet
holes; the rear tinted window was shattered; and there
was a trail of gasoline behind the vehicle. Hughes’s fin­
gerprints were discovered on two compact discs inside
the SUV, as well as on a cell phone that was deter­
mined to belong to Hughes (as it contained several

A3
photos taken by Hughes in which Hughes was in­
cluded). The compact discs were located in the back
seat of the SUV, and Hughes’s cell phone was located
in a compartment of the passenger’s door behind the
driver’s seat. Investigators also found three firearms—
two pistols and a rifle—and a number of spent shell
casings. They later determined that the shell casings
had been fired from four different weapons, including
the three found in the car. The remaining shell casings
had been fired from a different rifle that was not recov­
ered.
Epps died of a single gunshot wound to the back of
his neck. The medical examiner opined that, due to the
irregular shape of the entry wound, the bullet struck
an intermediate object before hitting Epps. This find­
ing was consistent with the discovery of a hole caused
by a bullet passing through the back of the driver’s
headrest. It was also consistent with observations
made by Officers Timothy Powell and Jenna Rojas with
regard to the origin and trajectory of the bullet that
was fired from somewhere behind Epps.2
Evidence further showed that Hughes’s cousin, Ja­
son Grantham, spoke with Hughes several days after
the shooting. Hughes admitted to Grantham that he
2 In a passing argument, Hughes complains that Officer
Powell was not qualified as an expert to opine on this topic. Even
if this were true, the same evidence was introduced through Of­
ficer Rojas, and Hughes makes no challenge to her testimony. See
Akhimie v. State, 297 Ga. 801, 807 (3) (777 SE2d 683) (2015) (no
showing of harm where testimony in question was cumulative of
other admissible evidence).

A4
had participated in the gunfight. Hughes explained
that, before the gunfight began, Hughes had asked
Epps “how he was gonna shoot that big gun in his lap,”
after which Hughes and Epps “switched guns.” In ad­
dition, Hughes said that, after the shootout began, he
reached forward, tapped Epps on the shoulder, and dis­
covered Epps was dead. Hughes then recounted that
he exited the vehicle and “took a lady[s] car.”
This evidence was sufficient to enable the jury to
find Hughes guilty beyond a reasonable doubt of the
crimes for which he was convicted. See Jackson v. Vir­
ginia, 443 U.S. 307 (99 SCt 2781,61 LE2d 560) (1979).3
And, though Hughes argues that some of the evidence
was “speculative,” it is the function of the jury to deter­
mine the weight of the evidence and the credibility of
witnesses at trial. See, e.g., Cox u. State, 306 Ga. 736
(1) (832 SE2d 354) (2019).4

3 In various sections of his brief, Hughes argues that his ac­
tions could not be considered the proximate cause of Epps’s death.
He is incorrect. The evidence presented at Hughes’s trial sup­
ported the jury’s finding that Hughes both possessed a firearm as
a convicted felon and was at least a party to the shootout that
foreseeably led to Epps’s death. See, e.g., Lebis v. State, 302 Ga.
750, 753-759 (II) (B) (808 SE2d 724) (2017) (evidence was suf­
ficient to find Lebis guilty of felony murder as a party to her
husband’s possession of a firearm as a convicted felon that
proximately caused the death of a police officer).
4 In his argument, Hughes conflates the standards for re­
viewing the constitutional sufficiency of the evidence and for re­
viewing the weight of the evidence for purposes of granting him a
new trial. This Court does not review the weight of the evidence,
as that consideration lies solely within the province of the jury at

A5
2. Hughes contends that the trial court erred by
giving an incomplete charge on felony murder and
proximate cause; failing to re-charge the jury on prox­
imate cause in response to questions from the jury af­
ter deliberations began; and failing to charge the jury
on the defense of justification.5 We disagree.
(a) With regard to the jury charges relating to
felony murder and proximate cause, Hughes made no
objections. Therefore, the claim that these charges
were incomplete is subject to plain error review on ap­
peal. See Guajardo v. State, 290 Ga. 172, 175 (4) (718
SE2d 292) (2011). The test for plain error is comprised
of four prongs:
First, there must be an error or defect—some
sort of deviation from a legal rule—that has
not been intentionally relinquished or aban­
doned, i.e., affirmatively waived, by the appel­
lant. Second, the legal error must be clear or
obvious, rather than subject to reasonable dis­
pute. Third, the error must have affected the
appellant’s substantial rights, which in the or­
dinary case means he must demonstrate that
it affected the outcome of the trial court
trial and, thereafter, the trial court in applying OCGA §§ 5-5-20
and 5-5-21.
5 Hughes disjointedly includes within this enumeration an
unrelated argument that, on the count of felony murder for which
he was convicted, there was a fatal variance between the indict­
ment and the evidence produced at trial. Hughes did not raise this
issue in the trial court; therefore, it has been waived for purposes
of appellate review. See Eberhart v. State, 307 Ga. 254, 262 (2) (a)
n.7 (835 SE2d 192) (2019) (failure to raise a fatal variance issue
in the trial court waives the issue for appeal).

A6
proceedings. Fourth and finally, if the above
three prongs are satisfied, the appellate court
has the discretion to remedy the error—dis­
cretion which ought to be exercised only if the
error seriously affects the fairness, integrity,
or public reputation of judicial proceedings.
(Citation, punctuation and emphasis omitted.) State v.
Kelly, 290 Ga. 29, 33 (2) (a) (718 SE2d 232) (2011).
Here, there was no clear or obvious error. The charges
given by the trial court tracked the pattern jury in­
struction on felony murder and proximate cause, see
Ga. Suggested Pattern Jury Instructions, Vol. II: Crim­
inal Cases § 2.10.30 (2020),6 and Hughes has not
shown that the charges were either incorrect or incom­
plete. Furthermore, Hughes has failed to demonstrate
that any purported error affected his substantial
6 The trial court instructed the jury:
In order for a homicide ... to be done in the commission
of one of these particular felonies, there must be some
connection between the felony and the homicide. The
homicide . . . must have been done in carrying out the
unlawful act and not collateral to it. It’s not enough
that the homicide occurred soon or presently after the
felony was attempted or committed. There must be
such a legal relationship between the homicide and fel­
ony so as to cause you to find that the homicide oc­
curred before the felony was at an end or before the
attempt to avoid conviction or arrest for the felony. The
felony must have a legal relationship to the homicide,
be at least concurrent with it in part, and be part of
it in an actual and material sense. The homicide is
committed in the carrying out of a felony, when it is
committed by the accused while engaged in the perfor­
mance of any act required for the full execution of the
felony.

A7
rights. Rather than attempting to make such a demon­
stration, Hughes again makes arguments relating to
the sufficiency of the evidence against him. For exam­
ple, Hughes claims that he acted in self-defense or that
someone else was responsible for Epps’s death.7 As set
forth in Division 1, however, the evidence was not only
constitutionally sufficient to support Hughes’s convic­
tions, it was strong. Therefore, Hughes has not estab­
lished plain error in connection with the trial court’s
charges on felony murder and proximate cause.
(b) With regard to Hughes’s claim that the trial
court failed to re-charge the jury on the issue of proxi­
mate cause after deliberations were underway, Hughes
waived any error, even if error existed. The record
shows that, after deliberations began, the jury sent out
a note asking the following questions: “Count one and
count two stated the felonies listed caused the death of
[the victim] by shooting him. Does this mean that de­
fendant simply shot [the victim]? The wording is un­
clear. In layman’s terms what are the differences
between count one and count two?” The trial court de­
termined that the appropriate way to deal with these
questions was to re-read the applicable counts of the
indictment (which had also been sent out with the
jury). Hughes did not object to the trial court’s deci­
sions; instead, he agreed that re-reading the indict­
ment was the appropriate means to answer the jury’s
questions. By agreeing with the trial court, Hughes af­
firmatively waived his right to challenge the trial
7 As explained in Division 2 (c), infra, Hughes was not enti­
tled to a charge on self-defense under the facts of this case.

A8
court’s action. See, e.g., Faust v. State, 302 Ga. 211,215
(3) (805 SE2d 826) (2017) (invited error waived any
contention of plain error for review); Hicks u. State, 295
Ga. 268, 275 (2) (759 SE2d 509) (2014) (concluding
that, because appellant expressly told the trial court
that it should not answer the jury’s question during
deliberation, appellant invited the alleged error, and
there was no plain error). See also United States v. Fulford, 267 F3d 1241, 1247 (II) (C) (3) (11th Cir. 2001)
(holding that a defendant’s explicit agreement with a
proposed jury instruction constituted invited error).
(c) Hughes argues that the trial court erred by
denying his request for a charge on self-defense, a con­
tention preserved for ordinary appellate review by a
timely objection. Hughes maintains that he was enti­
tled to this charge because there was some evidence
that he fired his weapon in self-defense, after others
outside the SUV began firing at him first. Hughes,
however, was a convicted felon when the shooting oc­
curred; thus, he was committing a felony by possessing
a firearm even before the shootout began,8 which pre­
cluded him from claiming that he acted in self-defense.
See OCGA § 16-3-21 (b) (2); Woodard v. State, 296 Ga.
803,808 (3) (771 SE2d 362) (2015). As Hughes was not
entitled to claim self-defense, the trial court did not err
by denying his request for such an instruction.

8 Hughes’s statement to Grantham indicates that he was in
possession of a firearm prior to the gunfight, and there was no
evidence presented that Hughes could have grabbed a gun only
after the shooting started.

A9
3. Finally, Hughes contends that his trial counsel
rendered constitutionally ineffective assistance in a
number of ways.
To prevail on a claim of ineffective assistance
of counsel, [Hughes] must prove both deficient
performance and resulting prejudice. See
Strickland v. Washington, 466 U. S. 668, 687
(104 SCt 2052, 80 LE2d 674) (1984). To estab­
lish deficient performance, [Hughes] must
show that his trial counsel performed in an
objectively unreasonable way, considering all
the circumstances and in the light of prevail­
ing professional norms. See id. at 687-690. To
establish prejudice, [Hughes] must show that
there is “a reasonable probability that, but for
counsel’s unprofessional errors, the result of
the proceeding would have been different.” Id.
at 694. We need not address both components
of this test if [Hughes] has not proved one of
them. See Walker v. State, 301 Ga. 482, 489
(801 SE2d 804) (2017).
Watson v. State, 303 Ga. 758, 761-762 (2) (d) (814 SE2d
396) (2018).
With extremely limited arguments, Hughes con­
tends that trial counsel performed deficiently by fail­
ing to object to a laundry list of items of evidence,
including shell casings recovered from the crime
scenes, broken car-window glass, autopsy photos, pho­
tos of Epps’s blood, and the audiotape of Geiger’s 911
call, on the grounds that these items were “irrelevant
and prejudicial.” Hughes is incorrect on all counts.

A10
OCGA § 24-4-401 defines “relevant evidence” as
“evidence having any tendency to make the existence
of any fact that is of consequence to the determination
of the action more probable or less probable than it
would be without the evidence.” However, relevant ev­
idence may be excluded under OCGA § 24-4-403 “if its
probative value is substantially outweighed by the
danger of unfair prejudice, confusion of the issues, or
misleading the jury or by considerations of undue de­
lay, waste of time, or needless presentation of cumula­
tive evidence.”
Here, the shell casings, car-window glass, 911 call,
and photos of Epps’s blood were all relevant in demon­
strating the circumstances of the shooting—specifi­
cally, the existence, nature, and location of the gunfight
that led to Epps’s death. Hughes contends that the ev­
idence has no nexus to him; however, there was ample
evidence that Hughes participated in the gunfight that
forms the basis for his convictions. The evidence listed
by Hughes was relevant to the nature and circum­
stances of the gunfight, and Hughes has not made any
showing that he was unfairly prejudiced by the admis­
sion of this evidence, especially in light of Hughes’s ad­
mission that he was involved.
Moreover, with regard to the autopsy photos, “pho­
tographic evidence that fairly and accurately depicts a
body or crime scene and is offered for a relevant pur­
pose is not generally inadmissible under OCGA § 244-403 merely because it is gruesome.” (Citation and
punctuation omitted.) Calhoun v. State, 308 Ga. 146,
152 (2) (c) (i) (839 SE2d 612) (2020). Here,

All
[t]he challenged photographs do not depict
the victim’s autopsy incisions, and they are
not especially gory or gruesome in the context
of autopsy photographs in a murder case; fur­
thermore, they were relevant to show the na­
ture and location of the victim’s injuries,
which corroborated the State’s evidence of the
circumstances of the killing.
Pike v. State, 302 Ga. 795, 799-800 (3) (809 SE2d 756)
(2018).
With regard to the 911 call made by Geiger,
Hughes makes an additional argument that trial coun­
sel should have objected to this evidence because the
call was not properly authenticated. This argument is
meritless. Here, the State introduced the 911 tape
through a detective who testified that he had listened
to the 911 call made by Geiger beforehand, and that he
recognized Geiger’s voice because he had previously in­
terviewed her. This was sufficient authentication. See
OCGA § 24-9-901 (b) (5) (authentication may be done
by “[identification of a voice, whether heard firsthand
or through mechanical or electronic transmission or re­
cording, by opinion based upon hearing the voice at any
time under circumstances connecting it with the al­
leged speaker”).
For all of the reasons set forth above, Hughes has
failed to show that his trial counsel was constitution­
ally ineffective.
Judgment affirmed. All the Justices concur, except
Warren, J., not participating.

A12
Decided November 16, 2020.
Murder. Chatham Superior Court. Before Judge
Bass.
Kimberly L. Copeland, for appellant.
Meg E. Heap, District Attorney, Bradley R. Thomp­
son, Assistant District Attorney; Christopher M Carr,
Attorney General, Patricia B. Attaway Burton, Deputy
Attorney General, Paula K Smith, Senior Assistant At­
torney General, Matthew D. O’Brien, Assistant Attorney
General, for appellee.

A13
APPENDIX B
IN THE SUPERIOR COURT
OF CHATHAM COUNTY
STATE OF GEORGIA
STATE OF GEORGIA,
vs.

Indictment No.
CR16-0687-J1

LAWRENCE B. HUGHES, JR.
Defendant.
ORDER ON MOTION FOR NEW TRIAL
(Filed Apr. 9, 2020)
Pending before the Court is a Motion for New Trial
filed by the Defendant. Having read and considered
said motion and amended motion, the State’s response,
all argument and evidence of record, including that
presented at the hearing on November 25, 2019, and
the applicable law, the Court finds as follows:
STATEMENT OF THE CASE
Defendant was indicted on April 20, 2016 and
charged with the following crimes: felony murder (two
counts), possession of a firearm during the commission
of a felony (four counts), and one count of aggravated
assault, hijacking a motor vehicle, armed robbery and
possession of a firearm by a convicted felon. Defendant
was tried from September 4 through September 7,
2018, Defendant was found guilty of all counts with the
exception of count four, aggravated assault. He was

A14
sentenced on September 14, 2018 as follows: as to
count two - felony murder - life without parole; count
three possession of a firearm during the commission of
a felony - five (5) years to serve consecutive to count
two; count six - hijacking a motor vehicle - twenty (20)
years to serve consecutive to count two plus a $10,000
fine which was suspended; count seven-possession of
a firearm during the commission of a felony - five (5)
years to serve, consecutive to the sentenced imposed in
count six; count eight - armed robbery - life with pa­
role, consecutive to the sentence imposed in count two;
and count ten - possession of a firearm by a convicted
felon-five years to serve to run consecutive to all other
counts upon which sentence has been imposed.
FINDINGS OF FACT
On June 25, 2015, Defendant, the victim Jamon
Epps, and two other people were driving around in a
Black GMC Yukon. In the vehicle were a number of
weapons. A gun fight broke out at the Top China res­
taurant on Skidaway and LaRoche Avenue, in Savan­
nah Georgia between the vehicle driven by Epps and
another vehicle. As a result of this gunfight, Jamon
Epps, who is the driver of the Yukon was struck by a
bullet and died. The Defendant, who is a back seat pas­
senger in the vehicle, was outside the vehicle when one
of the other passengers drives away in the Yukon. The
Defendant ran across the street to a laundromat and
hijacked the vehicle of Janie Geiger. The DNA of the
Defendant was found in the vehicle of Janie Geiger
which had been abandoned. His fingerprints were

A15
found on the vehicle where Epps’ body was found. Ad­
ditionally, his cell phone was found in that vehicle.
CONCLUSIONS OF LAW
Defendant alleges the following as grounds for his
Motion for New Trial:
1. General grounds - that the weight of the
evidence was contrary to the jury ver­
dicts and the evidence was not suffi­
cient to support the jury verdicts.
O.C.G.A. §5-5-20 provides that the trial court is
authorized to grant a new trial in any case where the
verdict of a jury is found contrary to the evidence and
principles of justice.
O.C.G.A. §5-5-21 provides that “[t]he presiding
judge may exercise a sound discretion in granting or
refusing a new trial in cases where the verdict may be
decidedly and strongly against the weight of the evi­
dence even though there may appear to be some slight
evidence in favor of the finding.” When this argument
is raised, it requires the trial judge to sit as a “thir­
teenth juror”. State v. Hamilton. 299 Ga. 667, 670, 791
S.E. 2d 51 (2016). “In exercising that discretion, the
trial judge must consider some of the things that she
cannot when assessing the legal sufficiency of the evi­
dence, including any conflicts in the evidence, the cred­
ibility of witnesses, and the weight of the evidence.” Id.
“Although the discretion of a trial judge to award a new
trial on the general grounds is not boundless - it is,

A16
after all, a discretion that ‘should be exercised with
caution [and] invoked only in exceptional cases in
which the evidence preponderates heavily against the
verdict, [cit omitted]. White v. State. 293 Ga. 523, 524525, 753 S.E. 2d 115 (2013).
Defendant additionally argues that pursuant to
Jackson v. Virginia 443 U.S. 307, 318-319, 99 S.Ct.
2781, 61 L.E.2d 560 (1979) there was not sufficient ev­
idence for a jury to find beyond a reasonable doubt that
he was guilty of the crimes for which he was convicted.
The evidence is to be evaluated in a light most favora­
ble to the verdict.
Although Defendant concedes that there is some
evidence to support the verdict, he argues that compe­
tent evidence to support the verdict is nonexistent. The
Court finds that there was sufficient evidence to sup­
port the verdict. The Defendant’s DNA was found on
the car he stole from Janie Geiger when he was fleeing
the scene of the gunfight. Additionally, his cousin tes­
tified that the Defendant admitted the murder to him.
Finally, the Defendant’s finger prints were found in the
vehicle and his cell phone was found in the vehicle.
This evidence in addition to the testimony of other wit­
nesses was more than sufficient to support the jury’s
verdict.
As to the Defendant’s claim that the trial judge
should sit as the 13th juror, the trial judge has weighed
and considered the evidence as the thirteenth juror
and finds that the verdict was not strongly against the

A17
weight of the evidence, in particular given the scien­
tific evidence of DNA and fingerprints.
2. The trial court erred in failing to give a
charge on justification
The Defendant argues that the trial court erred in
failing to give a charge on justification. He argues that
since the predicate crimes were status crimes, justifi­
cation could be a defense to felony murder. Defendant
additionally argues that the jury should have been
charged on No Duty to Retreat. Defendant cites to the
case of Heard v. State. 261 Ga. 262, 403 S.E. 2d 438
(1991).
The State argues that the Court did not err in fail­
ing to give a charge on justification and cites to both
O.C.G.A. §16-3-21(b) (2) and Woodard v. State. 296 Ga.
803, 771 S.E. 2d 362 (2015). The Court finds that the
Defendant was a convicted felon at the time of the
homicide. By possessing the firearm he was commit­
ting a felony. Heard was subsequently overruled by
Woodard, which provided that since the Defendant was
committing a felony he was not entitled to use the jus­
tification defense. The Court finds there was no error
in failing to give this charge.
3. Defendant received ineffective assis­
tance of counsel.
The standard for determining whether a defend­
ant was denied effective assistance of counsel under

A18
the Sixth Amendment is a two prong test, which pro­
vides that the Defendant must show that (1) the
counsel’s performance was deficient which requires
showing that counsel made errors so serious that coun­
sel was not functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment and (2) that the
deficient performance prejudiced the defense, which
requires a showing that counsel’s errors were so seri­
ous as to deprive the defendant of a fair trial whose
result is reliable. Strickland v. Washington. 466 U.S.
668, 687 (1984).
Trial strategy and tactics do not equate with
ineffective assistance of counsel. Effectiveness
is not judged by hindsight or by the result. Alt­
hough another lawyer may have conducted
the defense in a different manner and taken
another course of action, the fact that defend­
ant and his present counsel disagree with de­
cisions made by trial counsel does not require
a finding that defendant’s original represen­
tation was inadequate. Leon v. State. 237 Ga.
App. 99,105, 513 S.E. 2d 227 (1999).
“The appropriate test for determining prejudice is:
‘ [t] he defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional er­
rors, the result of the proceedings would have been
different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.’”
Miller v. State. 285 Ga. 285,676 S.E. 2d 173,174 (2009)
quoting Strickland 466 U.S. at 694.

A19
a. Defendant alleges that trial counsel
was ineffective for failing to object
to the testimony of Janie Geiger.
Defendant argues that trial counsel was ineffec­
tive in failing to object to Ms. Geiger’s testimony with
regard to the type of firearm the Defendant possessed.
However, Ms. Geiger was simply describing what the
gun looked like. The Court finds it was not ineffective
for trial counsel to fail to object to Ms. Geiger’s descrip­
tion of the gun.
b. Defendant alleges that trial counsel
was ineffective in failing to object to
Officer Powell’s testimony.
Defendant alleges that there was no basis for Of­
ficer Powell’s testimony since he had never been of­
fered as an expert witness. Defendant argues that
Powell’s testimony relative to ballistics and the trajec­
tory of the bullets should not have been admitted.
The State argues that Powell did not offer his
opinion but rather testified to the facts that he ob­
served in his years of experience. They further argue
that a lay witness is allowed to testify to their opinion
under either the old or the new evidence code. O.C.G.A.
§24-7-701 provides that a lay witness may testify to his
opinion provided that the opinion is (1) rationally
based upon the perception of the witness; (2) helpful to
a clear understanding of the witness’ testimony or the
determination of a fact in issue; and (3) not based on

A20
scientific, technical or other specialized knowledge
within the scope of 24-7-702.
The Court finds that Officer Powell’s testimony
was admissible and therefore trial counsel was not in­
effective in failing to object.
c. Defendant alleges trial counsel was
ineffective in failing to object to the
playing of the 911 call without au­
thentication.
The 911 call made by Janie Geiger was played for
the jury. The Defendant objects arguing that the call
was not authenticated. Trial counsel testified at the
hearing on the Motion for New Trial that he was abso­
lutely certain that he was given notice 10 days prior to
trial that the State intended to admit the 911 record­
ing as a business record, which was the reason he did
not object to the admission of the call. The Court finds
that trial counsel was not ineffective in failing to object
to the admission of the 911 call since notice was given
that the State intended to admit the call as a business
record.

A21
d. Defendant alleges that evidence
such as shell casings and glass that
had no nexus with the defendant
were admitted and that trial counsel
was ineffective in failing to object to
their admission.
In the hearing on the Motion for New Trial, trial
counsel testified that this evidence was relevant and
probative. He further testified that he had a strategic
reason for failing to object to the admission of these
items because it was relevant to his justification de­
fense, i.e. that there were multiple parties shooting at
the crime scene. Trial strategy does not amount to in­
effective assistance of counsel. Therefore, the Court
finds that the trial counsel was not ineffective in fail­
ing to object to the admission of these pieces of evi­
dence.
4. Defendant alleges that the indictment
is fatally at variance from the proof at
trial.
The Defendant argues that the indictment pro­
vides that the defendant caused the death of Epps by
shooting him. Defendant fails to make any specific ar­
gument as to why she believes the indictment varied
from the evidence presented at trial. The evidence pre­
sented at trial showed that the Defendant was in­
volved in the gun fight which resulted in the death of
Epps. Therefore, the Court finds that the evidence pre­
sented at trial did not vary from what is alleged in the
indictment.

A22
WHEREFORE, the Court having considered the
arguments made by the Defendant in support of his
Motion for New Trial, and the State’s response, IT IS
HEREBY ORDERED, ADJUDGED AND DECREED
that Defendant’s Motion for New Trial is DENIED.
SO ORDERED, THIS THE 9 DAY OF April.
2020.

/s/ James F. Bass Jr.
James F. Bass, Jr. Judge
Superior Court,
E.J.C. of Georgia
cc: All parties

